TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         The Interactive Tax Law Assistant
                         Helps Assistors Provide Accurate
                           Answers to Taxpayer Inquiries



                                           April 20, 2011

                              Reference Number: 2011-40-043




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


THE INTERACTIVE TAX LAW                                categories from the Probe and Response Guide
ASSISTANT HELPS ASSISTORS                              and Publication Method Guide to create one
PROVIDE ACCURATE ANSWERS TO                            source for all tax law categories in the ITLA.
TAXPAYER INQUIRIES                                     TIGTA conducted a survey of Accounts
                                                       Management function and Field Assistance
                                                       Office assistors. TIGTA offered the survey to
Highlights                                             1,321 Accounts Management function assistors
                                                       and 706 Field Assistance Office assistors—
Final Report issued on April 20, 2011                  610 assistors responded (317 Accounts
                                                       Management function assistors and 293 Field
Highlights of Reference Number: 2011-40-043            Assistance Office assistors).
to the Internal Revenue Service Commissioner
for the Wage and Investment Division.                  The results showed that more than 73 percent of
                                                       all assistors who responded are satisfied that
IMPACT ON TAXPAYERS                                    the ITLA provides accurate and consistent
                                                       responses and that it is easy to use. In addition,
The Interactive Tax Law Assistant (ITLA) is an         most assistors favor the ITLA as a research tool
interactive web-based system designed to               over the Probe and Response Guide and
provide customer-specific tax law responses in         Publication Method Guide.
an efficient and accurate manner. Testing
showed that the ITLA provides assistors with           However, only 68 percent of Accounts
accurate resolutions to taxpayer inquiries.            Management function assistors and 52 percent
                                                       of Field Assistance Office assistors are satisfied
WHY TIGTA DID THE AUDIT                                with the overall tax law training received. Only
Each year millions of taxpayers call the Internal      46 percent of Accounts Management function
Revenue Service (IRS) or walk into a local IRS         assistors and 41 percent of Field Assistance
office to ask tax law questions to help them meet      Office assistors rated training as adequately
their tax obligations. The overall objective of this   focusing on problem areas. When discussing
review was to determine whether the ITLA               the negative responses related to training with
improves the quality of responses and provides         IRS managers and employees, they advised us
assistors with accurate resolutions to taxpayer        that the dissatisfaction with Field Assistance
inquiries. In addition, TIGTA determined               Office training could be a result of the Office’s
whether performance metrics and efficiency             delivery method. Because of budget
savings goals for the project were clearly             constraints, annual training is conducted by
defined and achieved in accordance with the            Digital Video Disk. The Accounts Management
business case directives.                              function, with a dissatisfaction rate of
                                                       33 percent, conducts its annual training and
WHAT TIGTA FOUND                                       training for new hires in a classroom
                                                       environment. The IRS stated it is exploring a
Eighty-one percent of assistors surveyed               variety of options for providing training to its
indicated that the ITLA helps provide consistent       employees.
answers to tax law inquiries. They also rated it
as user friendly. Additionally, the Customer           WHAT TIGTA RECOMMENDED
Accuracy rates continue to be high for Accounts
Management function assistors and have                 TIGTA made no recommendations in this report.
improved for Field Assistance Office assistors.
Prior to the ITLA, Accounts Management
function assistors used the Probe and Response
Guide and Field Assistance Office assistors
used the Publication Method Guide to assist
them in responding to taxpayers’ tax law
questions. The IRS converted existing tax law
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 20, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Interactive Tax Law Assistant Helps
                             Assistors Provide Accurate Answers to Taxpayer Inquiries
                             (Audit #201040048)

 This report presents the results of our review to determine whether the Interactive Tax Law
 Assistant improves the quality of responses and provides assistors with accurate resolutions to
 taxpayer inquiries. We also determined whether performance metrics and efficiency savings
 goals for the project were clearly defined and achieved in accordance with the business case
 directives. This audit is included in the Treasury Inspector General for Tax Administration’s
 Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge of
 Providing Quality Taxpayer Service Operations.
 There were no recommendations as a result of the work performed during this review. However,
 Internal Revenue Service officials reviewed this report and were pleased that the Treasury
 Inspector General for Tax Administration is acknowledging the positive impact of the Interactive
 Tax Law Assistance on assistors and taxpayers.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report results.
 Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
 Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.
                                 The Interactive Tax Law Assistant Helps Assistors
                                  Provide Accurate Answers to Taxpayer Inquiries




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Interactive Tax Law Assistant Helps Ensure Taxpayers
          Receive Accurate Answers to Their Inquiries .............................................. Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – IRS Employee Survey Results ............................................. Page 17
          Appendix V – Management’s Response to the Draft Report ....................... Page 23
       The Interactive Tax Law Assistant Helps Assistors
        Provide Accurate Answers to Taxpayer Inquiries




                Abbreviations

DVD       Digital Video Disk
ITLA      Interactive Tax Law Assistant
IRS       Internal Revenue Service
                             The Interactive Tax Law Assistant Helps Assistors
                              Provide Accurate Answers to Taxpayer Inquiries




                                          Background

Each year millions of taxpayers call the Internal Revenue Service (IRS) or walk into a local IRS
office to ask tax law questions to help them meet their tax obligations. For the most part, IRS
assistors respond to these questions using the Interactive Tax Law Assistant (ITLA), an
interactive web-based system designed to provide customer-specific tax law responses in an
efficient and accurate manner.
The ITLA is a logic-driven probe and response tool developed to provide accurate, consistent
answers to certain tax law categories. It is organized as an interview in which the taxpayer
(through the IRS employee) answers a series of questions that lead to a conclusion and a
recommended course of action. For example, if a married taxpayer asks “What is my filing
status?” the assistor will ask the taxpayer a number of questions. The assistor will input the
taxpayer’s answers into the system and a response will be generated. See Figure 1 for the five
questions used to determine if a married taxpayer can file Married Filing Jointly.
                             Figure 1: Example of ITLA Filing Status
                                   Questions and Responses
        Questions and Responses                            ITLA Summary
1. What tax year are you asking about?
   Taxpayer answers 2010.
2. What was your marital status on the
   last day of 2010? Taxpayer answers
   married.
3. Do you and your spouse agree to file
   a joint tax return for 2010 which
   covers a calendar year or on the
   same fiscal year? Taxpayer
   answers yes.
4. Were you a U.S. citizen on the last
   day of 2010? Taxpayer answers
   yes.
5. Was your spouse a U.S. citizen on
   the last day of 2010? Taxpayer
   answers yes.
6. Your filing status is married filing
   jointly.
Source: The ITLA web site.


                                                                                          Page 1
                        The Interactive Tax Law Assistant Helps Assistors
                         Provide Accurate Answers to Taxpayer Inquiries



The IRS began testing combined tax law categories for the Accounts Management function and
the Field Assistance Office in May 2007. The ITLA Project officially deployed 45 tax law
categories in January 2008 for the 2008 Filing Season. The Accounts Management function uses
105 tax law categories, and the Field Assistance Office uses 95 tax law categories. If the
taxpayer asks a question on a topic covered in the ITLA, assistors are required to use the ITLA.
The ITLA has also been launched on the IRS’s public Internet site, IRS.gov, as the Interactive
Tax Assistant. This allows taxpayers a self-assistance option to obtain answers to their tax law
questions. See Figure 2 for a screen image of the IRS.gov webpage for the Interactive Tax
Assistant.
                         Figure 2: The Interactive Tax Assistant




Source: IRS.gov.

This review was performed in the Accounts Management function and the Field Assistance
Office at the Wage and Investment Division Headquarters in Atlanta, Georgia, and at the tax law
telephone call site and Taxpayer Assistance Center in Pittsburgh, Pennsylvania, during the period
July 2010 through January 2011. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our finding and conclusions based on our audit objective.

                                                                                           Page 2
                       The Interactive Tax Law Assistant Helps Assistors
                        Provide Accurate Answers to Taxpayer Inquiries



Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                           The Interactive Tax Law Assistant Helps Assistors
                            Provide Accurate Answers to Taxpayer Inquiries




                                     Results of Review

The Interactive Tax Law Assistant Helps Ensure Taxpayers Receive
Accurate Answers to Their Inquiries
Testing showed that the ITLA provides assistors with accurate resolutions to taxpayer inquiries.
Eighty-one percent of assistors surveyed indicated that the ITLA helps provide consistent
answers to tax law inquiries. They also rated the ITLA as user friendly. Additionally, the
Customer Accuracy rates continue to be high for Accounts Management function assistors and
have improved for Field Assistance Office assistors.1 However, the IRS has implemented
various new quality assurance systems and processes, and it is difficult to determine which of
these have had the most influence on the Customer Accuracy rates. See Figure 3 for the
Customer Accuracy rates for Fiscal Years 2008 through 2010.
                          Figure 3: Tax Law Customer Accuracy Rates
                               for Fiscal Years 2008 Through 2010

                                   Accounts Management                  Field Assistance
                  Fiscal                Function                              Office
                   Year
                                   Goal             Actual              Goal        Actual

                   2008             91                91.2              N/A           69.0

                   2009             91                92.9               70           75.3

                   2010             91                92.7               77           80.9
               Source: IRS Centralized Quality Review System, Weighted Customer Accuracy Reports.

The ITLA efficiently combined two prior guides into one resource, allowing the
IRS to maintain only one resource and one system to be used by both Accounts
Management function and Field Assistance Office assistors
Prior to the ITLA, Accounts Management function assistors used the Probe and Response Guide
and Field Assistance Office assistors used the Publication Method Guide to assist them in
responding to taxpayers’ tax law questions. The Probe and Response Guide was an electronic
application accessed through the IRS’s intranet, but the Publication Method Guide could be


1
 The Accounts Management function oversees the assistors who answer the IRS’s toll-free telephone calls. The
Field Assistance Office oversees the assistors in 401 Taxpayer Assistance Centers.
                                                                                                        Page 4
                        The Interactive Tax Law Assistant Helps Assistors
                         Provide Accurate Answers to Taxpayer Inquiries



accessed as hard-copy publications or electronically. The Accounts Management function and
Field Assistance Office each maintained its own Guide.
Maintaining the Guides could be labor intensive and costly. For example, the Field Assistance
Office had to annually update the Publication Method Guide using Microsoft Word and convert
it to Adobe Portable Document Format. Then the Adobe file was converted by a vendor into an
interactive application and posted to the IRS intranet. The vendor also provided printed versions
of the Publication Method Guide. The Publication Method Guides were shipped to Field
Assistance Office assistors. Any late changes in tax law created significant challenges getting
the Publication Method Guide updated for each filing season. Any tax law changes that arose
after the printing would have to be communicated through other methods.
The ITLA includes tax law categories from the prior two systems and creates a path
specific to the assistors for easy access
The IRS converted existing tax law categories from the Probe and Response Guide and
Publication Method Guide to create one source for tax law categories in the ITLA. However,
Accounts Management function assistors and Field Assistance Office assistors access the topics
using different links or paths. An alphabetic index of topics is provided to both Accounts
Management function and Field Assistance Office assistors, as well as a topic listing by
category; for example, Filing Requirements, Income, Adjustments to Income, and Itemized
Deductions. However, only those topics in scope for the assistors are listed.
Due to the complexity of the tax law, not every assistor is trained in all tax topics. Field
Assistance Office assistors are trained to respond to most tax issues related to individuals and a
limited number of tax issues related to businesses. Accounts Management function assistors
answer questions related to individual and business taxes. The IRS, with the ITLA, is able to
maintain one database of tax law categories to direct assistors to the appropriate category and tax
topic. Additionally, the ITLA includes links to tax products the assistors can use for further
research or clarification.
The ITLA allows for efficient and timely updates to tax law guidance
Every year the tax law changes, from adjustments to the amounts for personal exemptions to
significant revisions to specific laws. Additionally, there are changes in IRS policies and new
legislation creating new tax laws. The ITLA allows for
timely updates to tax law guidance, regardless of
whether the changes come as expected with each filing          The ITLA allows for timely updates
                                                               to tax law guidance, regardless of
season or unexpected throughout the year.                        whether the changes come as
When a new tax law category is created, it is subject to   expected with each filing season or
                                                            unexpected throughout the year.
several levels of review before it is added to the ITLA.
Business representatives conceptualize the topic and
Subject Matter Experts review the topic for accuracy and completeness. The Subject Matter

                                                                                            Page 5
                            The Interactive Tax Law Assistant Helps Assistors
                             Provide Accurate Answers to Taxpayer Inquiries



Experts also review changes to current topics. The ITLA homepage posts announcements of
changes to the ITLA. The ITLA web site also posts a Change Log. The Change Log is a table
listing significant changes to ITLA topics and the date the change was made. Minor changes
such as hyperlinks or small changes in wording are not listed.
The ITLA team also relies on the assistors to identify errors with the tax law categories. If
assistors identify problems with tax law categories, they are instructed to send feedback through
their supervisors, who then forward it to quality reviewers for review and consideration.
The IRS’s Modernization and Information Technology Services organization transmits the ITLA
updates weekly, after business hours. Between updates, the IRS creates pop-up alert messages to
the assistors. Additionally, alerts are posted on the ITLA homepage to notify employees that a
change has been made to a tax law category.
The ITLA provides accurate and consistent responses
A limited test of the following eight tax law categories showed that the ITLA provides accurate
and consistent responses.2
    •   Amended Returns.
    •   Dependents.
    •   Earned Income Credit.
    •   Estimated Tax.
    •   Filing Information.
    •   Income Inquiry Tax Law.
    •   Individual Taxpayer Identification Number.
    •   Itemized or Standard Deduction.
All probes within an ITLA tax law category must be asked in order for the ITLA response to be
accurate and complete. The ITLA does not allow the assistor to proceed without covering all the
probes within each tax law category.

A survey of assistors showed that they believe the ITLA provides accurate
responses to taxpayer questions, but assistors must still be knowledgeable in tax
law to assure taxpayers receive accurate responses
The IRS advises assistors that the ITLA is not designed to replace the technical and
communication skills required by all assistors who have direct customer contact. Without a good
foundation of tax law knowledge, adequate communication, and research skills, an assistor will
not be fully proficient using the ITLA alone.

2
  We reviewed 6 of 105 tax law categories for the Accounts Management function and 4 of 95 tax law categories for
the Field Assistance Office. The tax law categories Amended Returns and Dependents were tested for both the
Accounts Management function and Field Assistance Office.
                                                                                                         Page 6
                              The Interactive Tax Law Assistant Helps Assistors
                               Provide Accurate Answers to Taxpayer Inquiries



We conducted a survey of Accounts Management function and Field Assistance Office assistors.
We offered the survey to 1,321 Accounts Management
function assistors and 706 Field Assistance Office assistors—
                                                              Most survey respondents
610 assistors responded (317 Accounts Management function      have been with the IRS
assistors and 293 Field Assistance Office assistors). More      for more than 4 years.
than 60 percent of the respondents have been with the IRS
more than 4 years.
We designed the survey to evaluate whether the assistors believe the ITLA is easy to use,
provides correct answers, and helps eliminate tax law errors. We also wanted to determine if the
assistors were satisfied with overall training, if the tax law training prepared the assistors to
answer tax law questions, and if the assistors were satisfied with the training delivery method.3
As shown in Figure 4, more than 73 percent of all assistors who responded are satisfied that the
ITLA provides accurate and consistent responses and that it is easy to use. In addition, most
assistors favor the ITLA as a research tool over the Probe and Response Guide and Publication
Method Guide. However, only 68 percent of Accounts Management function assistors and
52 percent of Field Assistance Office assistors are satisfied with the overall tax law training
received. Only 46 percent of Accounts Management function and 41 percent of Field Assistance
Office assistors rated training as adequately focusing on problem areas.




3
    See Appendix IV for the complete survey.
                                                                                          Page 7
                            The Interactive Tax Law Assistant Helps Assistors
                             Provide Accurate Answers to Taxpayer Inquiries



                     Figure 4: Responses to Selected Survey Questions
                                                                            Accounts                Field
                                                               Total       Management             Assistance
Assistors:                                                                  Function                Office
Are satisfied using the ITLA to answer tax law
                                                               83%              82%                   85%
questions.
Prefer the ITLA as a tax law research tool to the
Probe and Response Guide and the Publication                   83%              79%                   87%
Method Guide.
Believe the ITLA is user friendly.                             80%              78%                   82%
Are confident the ITLA helps provide correct
                                                               73%4             68%                   78%
answers.
Believe the ITLA is helping to provide consistent
                                                               81%              79%                   83%
answers.
Were satisfied with the overall tax law training
                                                               60%              68%                   52%
received.
Believe the ITLA helps to respond quickly to
                                                               70%              71%                   68%
questions.
Believe the ITLA reduces the need to use other
                                                               56%              47%                   71%
research methods.
Believe tax law training is adequate in preparing them
                                                               62%              70%                   54%
to answer taxpayer inquiries.

Are satisfied with the training delivery method.               57%              67%                   47%

Are satisfied with the tax law training scenarios.             51%              55%                   48%

Believe training is adequately focused on problem
                                                               44%              46%                   41%
areas.
Are satisfied with the tax law training by Digital Video
                                                                NA              NA*                   35%
Disk (DVD)
Source: Treasury Inspector General for Tax Administration survey of assistors. NA=Not Applicable. Accounts
Management function assistors do not receive Continuing Professional Education using DVDs.

When discussing the negative responses related to training with IRS managers and employees,
they advised us that the 53 percent dissatisfaction with Field Assistance Office training could be
a result of the Office’s delivery method. Because of budget constraints, annual training is
conducted by DVD.5 Training for new employees in the Field Assistance Office is conducted in
a classroom environment. The Accounts Management function, with a dissatisfaction rate of

4
  The total column is the average of Accounts Management and Field Assistance individual totals and is subject to
rounding.
5
  Updates to the annual training are provided by other delivery methods such as presentations over the intranet.
                                                                                                           Page 8
                              The Interactive Tax Law Assistant Helps Assistors
                               Provide Accurate Answers to Taxpayer Inquiries



33 percent, conducts its annual training and training for new hires in a classroom environment.
The IRS stated it is exploring a variety of options for providing training to its employees.
IRS officials also stated annual tax law training cannot address all specific problems. The IRS’s
quality analysts provide operational and territory managers with tax law trending information.
This information is disseminated down to Taxpayer Assistance Centers and call sites.
Depending on the function, either group training or individual training is used to address defects
that are specific to a Taxpayer Assistance Center, call site, and in some cases to an individual
assistor.
Although many assistors are not satisfied with training, accuracy rates are currently more than
90 percent and 80 percent for Accounts Management function and Field Assistance Office
assistors, respectively. Additionally, quality review staff and managers stated that the IRS is
working to improve training for assistors by reinforcing research skills and focusing on certain
tax law categories. Finally, training documents for the 2011 Filing Season showed an emphasis
on researching tax law and the appropriate use of the ITLA. We are not making any
recommendations at this time.

The ITLA has moved out of project status
When the ITLA Project was initiated in Fiscal Year 2009,6 the IRS established four objectives
for the ITLA. 7
      1. Improve taxpayer services by deploying one single tax law guide to ensure consistency
         and continuity of customer tax law inquiries across the Wage and Investment Division.
      2. Improve assistor satisfaction and performance.
      3. Modernize the IRS through its people, processes, and technology.
      4. Expand Electronic Government.
The ITLA Project appears to have generally met its objectives. The IRS eliminated the need to
update two separate systems and replaced them with one electronic system that is more efficient
and easy to use. Assistors are satisfied with the ITLA and prefer it to the prior methods.
The IRS also established performance metrics, efficiency savings, and reduction of taxpayer
burden goals for the ITLA Project.
      •    The ITLA would be considered successful if, from Fiscal Year 2009 to 2010, it improved
           Customer Accuracy rate in the Accounts Management function by 0.17 percent and the
           Field Assistance Office by 1 percent.


6
    The original ITLA initiative began in June 2007.
7
    The project was officially named the Interactive Tax Law Assistant/Customer On-Line Decision Support.
                                                                                                            Page 9
                             The Interactive Tax Law Assistant Helps Assistors
                              Provide Accurate Answers to Taxpayer Inquiries



     • The IRS also expected to increase efficiency from the use of the improved tax law
       categories. This included a reduction in Average Handle Time, the time an assistor
       spends with taxpayers when responding to their questions.
     • The Project was expected to cost $8.4 million over 11 years (Fiscal Year 2008 to 2018)
       and produce a cost savings of $4.48 million over 9 years (Fiscal Year 2010 to 2018).8
       The IRS also expected a 42 percent Return on Investment9 for the ITLA.
It is difficult to determine whether the IRS met the measures it set for the ITLA Project. The
Customer Accuracy rates and Average Handle Time10 are affected by numerous factors.
In Fiscal Year 2006, the IRS implemented a standardized quality measurement system to
measure the quality of taxpayer service at its Taxpayer Assistance Centers. This includes
Contact Recording that allows quality reviewers to review recordings of both face-to-face and
telephone contacts. Both the Accounts Management function and the Field Assistance Office
use the IRS Centralized Quality Review System to quality review the contacts and identify
defects and concerns. It uses a number of feedback mechanisms to improve performance and
quality.
The Customer Accuracy rate for the Accounts Management function decreased by 0.2 percent
instead of increasing 0.17 percent (from 92.9 percent in Fiscal Year 2009 to 92.7 percent in
Fiscal Year 2010). However, the Field Assistance Office Customer Accuracy rate increased by
7.4 percent, from 75.3 percent in Fiscal Year 2009 to 80.9 percent in Fiscal Year 2010.
Identifying the exact reason for either of these changes is not possible.
Average Handle Time is also influenced by a number of factors, including changes to the laws,
the complexity of the laws, and, of course, the ITLA. Average Handle Time increased 7 percent
from Filing Season 2009 to 2010. However, during the 2010 Filing Season, the IRS moved less
complex calls to automation, such as calls related to refunds and prior years’ adjusted gross
income, leaving the more complex calls for assistors to answer. This would influence Average
Handle Time.
The IRS has not reviewed the costs and savings specific to the ITLA Project’s economic analysis
and therefore does not know if it is meeting its Return on Investment goal. Nevertheless, the
ITLA Project officially closed July 2010 and the new Rules Based Office responsible for the
ITLA stood up January 2011. The Rules Based Office needs to establish controls to track costs
to ensure it is budgeted sufficiently to maintain the ITLA. We are making no recommendations
at this time.


8
  The IRS also calculated intangible efficiency savings of $24.8 million over 9 years. The cost savings of
$4.48 million are tangible savings realized by eliminating contractor services, IRS labor costs, and travel costs.
9
  Return on Investment is the net profit or loss in an accounting period divided by the capital investment used during
the period, usually expressed as an annual percentage return.
10
   The Field Assistance Office does not measure Average Handle Time.
                                                                                                            Page 10
                        The Interactive Tax Law Assistant Helps Assistors
                         Provide Accurate Answers to Taxpayer Inquiries



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the ITLA improves the quality of responses and
provides assistors with accurate resolutions to taxpayer inquiries. To accomplish our objective,
we:
I.     Evaluated the IRS’s implementation of the ITLA and determined whether the IRS
       established performance metrics, efficiency savings, and reduction of taxpayer burden
       goals for the project and whether the goals were achieved.
       A. Analyzed the IRS’s ITLA business case, project management plan, and other related
          documents.
       B. Interviewed various IRS management officials and program analysts with
          responsibility for implementing the ITLA project.
       C. Determined the process used by ITLA Subject Matter Experts to develop and verify
          the accuracy of tax law categories and determined whether the process is adequate.
       D. Conducted Taxpayer Assistance Center visits to observe the ITLA being used and
          determined assistor satisfaction with the ITLA and training.
       E. Conducted a visit to an Accounts Management function toll-free telephone tax law
          call site to observe ITLA use and determined assistor usability and satisfaction with
          the ITLA and training.
       F. Evaluated the tax law and ITLA training process by reviewing tax law and ITLA
          training documents and the ITLA homepage training links, as well as interviewing
          Accounts Management function and Field Assistance Office tax law training staff and
          Subject Matter Experts assigned to the ITLA project. We also determined whether
          training is adequate in providing assistors with skills necessary to provide complete,
          accurate, and consistent tax law answers.
II.    Determined whether tax law accuracy has improved as a result of implementing the
       ITLA.
       A. Reviewed Accounts Management function tax law Customer Accuracy rates from
          January 2008 through December 2010 and determined whether the rates had
          improved.
       B. Determined whether the ITLA had a positive effect on the Accounts Management
          function’s tax law Customer Accuracy rates or whether other factors were involved.

                                                                                         Page 11
                       The Interactive Tax Law Assistant Helps Assistors
                        Provide Accurate Answers to Taxpayer Inquiries



       C. Reviewed Field Assistance Office tax law Customer Accuracy rates from
          January 2008 through December 2010 and determined whether the rates had
          improved.
       D. Determined whether the ITLA had a positive effect on the Field Assistance Office’s
          tax law Customer Accuracy rates or whether other factors were involved.
       E. Interviewed IRS officials to determine how they have gauged tax law accuracy
          performance since the implementation of the ITLA and if they measured whether an
          increase or decrease occurred in performance as a result of the ITLA’s
          implementation.
III.   Determined whether tax law defects are identified in Accounts Specialized Product
       Review Groups and the effect on Accounts Customer Accuracy rates.
       A. Reviewed Centralized Quality Review System reports from January 2008 through
          December 2010 and identified tax law categories in Accounts Specialized Product
          Review Groups for both the Field Assistance Office and Accounts Management
          Function.
       B. Determined the tax law defects in Accounts Specialized Product Review Groups and
          the effect on Accounts Customer Accuracy rates.
IV.    Evaluated whether assistors are satisfied with the ITLA.
       A. Obtained the list of Field Assistance Office and Accounts Management function
          assistors. The IRS list of assistors included 4,244 records. There were 4,059 records
          with complete employee data, including email addresses. We used these records to
          email a representative sample of 2,027 assistors the survey. We received a total of
          610 responses.
       B. Developed a survey questionnaire to assess employee satisfaction with the ITLA and
          whether assistors are satisfied with tax law training received.
V.     Evaluated Accounts Management function’s ITLA tax law category answers for accuracy
       and completeness by comparing with IRS resource materials such as IRS tax
       publications, the tax law scenarios on the ITLA homepage, and other tax references for a
       sample of topics.
       A. Selected tax law defects for the Accounts Management function.
          1. Identified the top six tax law case type defects for the Accounts Management
             function based on volume for Fiscal Year 2009. We sampled tax law case type
             defects for Fiscal Year 2009 (October 2008 to September 2009). A query from
             the National Quality Review System resulted in a population of 434 records with
             Attribute 715 (a correct and complete response was provided to the taxpayer)

                                                                                        Page 12
                       The Interactive Tax Law Assistant Helps Assistors
                        Provide Accurate Answers to Taxpayer Inquiries



              equal to “NO.” Of the 434 records, there were 80 case types with Attribute 715
              defects. We identified the top six case types (two case types tied for fifth place)
              with defects and sorted by highest volume percentage. We tested the ITLA for
              these six case types.
       B. Created scenarios from the applicable IRS publications, accessed the ITLA tax law
          categories, and compared the tax law category answers to the publications.
VI.    Evaluated the Field Assistance Office’s ITLA tax law category answers for accuracy and
       completeness by comparing with IRS resource materials such as IRS tax publications, the
       tax law categories on the ITLA homepage, and other tax references for a sample of
       topics.
       A. Selected tax law defects for the Field Assistance Office.
          1. Identified the top four tax law case type defects for the Field Assistance Office
             based on volume for Fiscal Year 2009. We sampled tax law case type defects for
             Fiscal Year 2009 (October 2008 to September 2009). A query from the National
             Quality Review System resulted in a population of 1,155 records with Attribute
             715 (a correct and complete response was provided to the taxpayer) equal to
             “NO.” Of the 1,155 records, there were 72 case types with Attribute 715 defects.
             We identified the top four case types with defects and sorted by highest volume
             percentage. We tested the ITLA for these four case types.
          2. Created scenarios from the applicable IRS publications, accessed the ITLA tax
             law categories, and compared the answer to the publications. We determined
             whether tax law or ITLA training contributed to the selected defects.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the project’s Phase A business case,
economic analysis reports, tax law customer accuracy report, Strategy and Finance assessment
reports, business plan assessments, tax law and ITLA training procedures, the Centralized
Quality Review System’s monitoring processes, and the ITLA system. We evaluated these
controls by conducting visits to the toll-free telephone call site and the Taxpayer Assistance
Center in Pittsburgh, Pennsylvania, interviewing assistors and management from both functions,
conducting an employee satisfaction survey on the ITLA and tax law, assessing the accuracy of
the ITLA tax law categories, and reviewing documents relevant to the project’s implementation
and management, as well as reviewing tax law and ITLA training procedures.


                                                                                           Page 13
                           The Interactive Tax Law Assistant Helps Assistors
                            Provide Accurate Answers to Taxpayer Inquiries



Validation of Computer-Processed Data
We used computer-processed data from the National Quality Review System to identify tax law
case type defects for the Accounts Management function and Field Assistance Office. The data
from the National Quality Review System were determined to be valid and reliable in a prior
audit;1 therefore, we did not perform additional validation of the data.




1
 Data Used to Report Toll-Free Telephone Quality Are Reliable, but Internal Controls Need to Be Documented
(Reference Number 2006-40-107, dated July 21, 2006).
                                                                                                     Page 14
                      The Interactive Tax Law Assistant Helps Assistors
                       Provide Accurate Answers to Taxpayer Inquiries



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Jean Bell, Lead Auditor
Pamela DeSimone, Senior Auditor
Patricia A. Jackson, Senior Auditor
Jerry Kim, Information Technology Specialist




                                                                                    Page 15
                      The Interactive Tax Law Assistant Helps Assistors
                       Provide Accurate Answers to Taxpayer Inquiries



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Chief Counsel CC
Chief, Performance Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 16
                              The Interactive Tax Law Assistant Helps Assistors
                               Provide Accurate Answers to Taxpayer Inquiries



                                                                                          Appendix IV

                           IRS Employee Survey Results1

         Question 1                               Accounts Management function
                                                                       Neither
                                           Definitely    Somewhat     Agree or   Somewhat    Definitely
        Please rate the       Columns       Agree          Agree      Disagree    Disagree   Disagree
       following aspects      A and B
           of the ITLA.      Combined2         (A)           (B)        (C)         (D)         (E)

     Satisfied using the
     ITLA tool to answer       81.6%         30.8%         50.8%       3.7%       10.0%        4.7%
     tax law questions.

     The ITLA is user
                               77.7%         32.4%         45.3%       5.4%       10.5%        6.4%
     friendly.
     Feel confident the
     ITLA helps provide        67.8%         23.7%         44.1%       6.1%       18.6%        7.5%
     correct answer.
     It is easy to
     determine which
                               67.7%         24.8%         42.9%       10.2%      17.0%        5.1%
     tax law category to
     use.
     Satisfied with the
     research links and        73.4%         35.0%         38.4%       10.4%      11.8%        4.4%
     tables on the ITLA.

     Helps to eliminate
                               69.3%         32.4%         36.9%       13.7%      11.9%        5.1%
     errors.
     Helps to respond
     promptly to               71.2%         31.9%         39.3%       10.8%       8.5%        9.5%
     questions.
     Helps provide
                               78.7%         40.0%         38.7%       8.0%        9.3%        4.0%
     consistent answers.
     The ITLA reduces
     the use of other          47.2%         16.5%         30.7%       9.7%       24.3%       18.8%
     research methods.


1
    Percentages do not equal 100 percent due to rounding.
2
    Percentages subject to rounding for amounts in Columns A and B.
                                                                                                 Page 17
                           The Interactive Tax Law Assistant Helps Assistors
                            Provide Accurate Answers to Taxpayer Inquiries




      Question 2                                Accounts Management function
                                                                 Neither
                                       Definitely   Somewhat    Agree or   Somewhat    Definitely
     Please rate the        Columns     Agree         Agree     Disagree    Disagree   Disagree
  following aspects of       A and B
    tax law training.       Combined      (A)          (B)        (C)           (D)       (E)

Satisfied with the
overall tax law training     67.8%      26.1%         41.7%      8.1%          13.9%    10.2%
received.
The tax law training
adequately prepares
                             70.0%      25.6%         44.4%      6.8%          15.4%     7.8%
me to answer taxpayer
inquiries.
Satisfied with the
training delivery            67.2%      23.3%         43.9%      8.4%          15.9%     8.4%
method.
Receive adequate
training on recognizing      72.0%      28.4%         43.6%      8.0%          12.5%     7.6%
a tax law issue.
Receive adequate
training on when to use      77.0%      40.0%         37.0%      10.0%         8.0%      5.0%
the ITLA.
Satisfied with the tax
                             55.2%      18.5%         36.7%      17.8%         18.5%     8.4%
law training scenarios.
Receive sufficient
updates on tax law           60.7%      21.0%         39.7%      10.7%         17.0%    11.7%
changes.
Training adequately
focuses on problem           46.1%      11.4%         34.6%      15.7%         26.8%    11.4%
areas.




                                                                                         Page 18
                     The Interactive Tax Law Assistant Helps Assistors
                      Provide Accurate Answers to Taxpayer Inquiries




                                                          Question 4
Question 3 Accounts Management function          Accounts Management function
        Do you receive classroom training,         What kind of training delivery
        online self-study training, or both?             do you prefer?

Classroom                            38.5%          Classroom                46.1%
Online Self-Study                     3.2%       Online Self-Study           5.5%
Both                                 57.3%             Both                  47.4%
Other                                 1.0%             Other                 1.0%

                                                          Question 6
Question 5 Accounts Management function          Accounts Management function
      Do you feel that the feedback provided
           by your supervisor/manager is
                                                 What research tool do you prefer?
      meaningful and substantive in enabling
     you to improve your tax law performance?

                                                Probe & Response
Yes                                  66.9%      Guide or Publication         21.0%
                                                  Method Guide
No                                   18.2%             ITLA                  79.0%
Not Sure                             15.0%

                                                          Question 8
Question 7 Accounts Management function          Accounts Management function
     Do you feel your suggestions or feedback
                                                How long have you been a Contact
         are considered when updating the
                                                Representative or a Tax Specialist?
        ITLA tax law categories or probes?

Yes                                  29.6%      Less than one year           0.0%
No                                   17.0%          1 to 3 years             38.7%
Not Sure                             26.7%          4 to 5 years             15.7%
Never made any
suggestions or offered               26.7%       More than 5 years           45.7%
feedback.




                                                                                      Page 19
                        The Interactive Tax Law Assistant Helps Assistors
                         Provide Accurate Answers to Taxpayer Inquiries




   Question 1                                 Field Assistance Office
                                                             Neither
                                 Definitely   Somewhat      Agree or    Somewhat    Definitely
 Please rate the      Columns     Agree         Agree       Disagree     Disagree   Disagree
following aspects      A and B
    of the ITLA.      Combined      (A)          (B)          (C)          (D)         (E)

Satisfied using the
ITLA tool to
                       84.5%      40.5%         44.0%        1.7%         9.6%        4.1%
answer tax law
questions.
The ITLA is user
                       82.1%      37.5%         44.7%        3.8%         9.3%        4.8%
friendly.
Feel confident the
ITLA helps provide     78.1%      39.4%         38.7%        4.8%        15.1%        2.1%
correct answer.
It is easy to
determine which
                       56.7%      14.1%         42.6%        10.3%       20.6%       12.4%
tax law category to
use.

Satisfied with the
research links and     73.3%      33.9%         39.4%        10.6%       11.0%        5.1%
tables on the ITLA.

Helps to eliminate
                       80.8%      43.5%         37.3%        8.2%         6.5%        4.5%
errors.
Helps to respond
promptly to            68.2%      34.6%         33.6%        6.2%        16.6%        9.0%
questions.
Helps provide
consistent             83.4%      47.2%         36.2%        5.2%         7.2%        4.1%
answers.

Use less paper
products as a          71.3%      46.7%         24.6%        11.1%       10.7%        6.9%
result of the ITLA.

The ITLA reduces
the use of other       65.1%      25.3%         39.7%        8.6%        17.1%        9.2%
research methods.




                                                                                      Page 20
                           The Interactive Tax Law Assistant Helps Assistors
                            Provide Accurate Answers to Taxpayer Inquiries




      Question 2                                    Field Assistance Office
                                                                  Neither
                                       Definitely   Somewhat     Agree or     Somewhat    Definitely
     Please rate the        Columns     Agree         Agree      Disagree      Disagree   Disagree
  following aspects of       A and B
    tax law training.       Combined      (A)           (B)         (C)          (D)         (E)
Satisfied with the
overall tax law training     51.9%      15.8%         36.1%        7.9%        22.3%       17.9%
received.
The tax law training
adequately prepares
                             53.6%      19.4%         34.3%        12.1%       21.8%       12.5%
me to answer taxpayer
inquiries.
Satisfied with the
training delivery            46.7%      14.4%         32.3%        11.0%       23.7%       18.6%
method.
Receive adequate
training on recognizing      57.4%      22.0%         35.4%        12.4%       16.5%       13.7%
a tax law issue.
Receive adequate
training on when to use      66.7%      29.9%         36.8%        11.0%       12.7%        9.6%
the ITLA.
Satisfied with the tax
                             47.6%      15.9%         31.7%        20.7%       19.0%       12.8%
law training scenarios.
Receive sufficient
updates on tax law           63.4%      24.8%         38.6%        13.1%       14.5%        9.0%
changes.
Training adequately
focuses on problem           41.4%      13.4%         28.1%        16.4%       24.7%       17.5%
areas.
Satisfied with
Continuing Professional
                             34.9%      11.6%         23.3%        13.0%       17.1%       34.9%
Education training by
Digital Video Disk.




                                                                                           Page 21
                     The Interactive Tax Law Assistant Helps Assistors
                      Provide Accurate Answers to Taxpayer Inquiries




       Question 3 Field Assistance Office       Question 4 Field Assistance Office
        Do you receive classroom training,         What kind of training delivery
        online self-study training, or both?             do you prefer?

Classroom                             5.1%          Classroom                52.5%
Online Self-Study                    24.7%       Online Self-Study           4.7%
Both                                 63.2%             Both                  41.4%
Other                                 7.1%             Other                 1.4%

       Question 5 Field Assistance Office       Question 6 Field Assistance Office
      Do you feel that the feedback provided
           by your supervisor/manager is
                                                 What research tool do you prefer?
      meaningful and substantive in enabling
     you to improve your tax law performance?

                                                Probe & Response
Yes                                  57.9%      Guide or Publication         12.9%
                                                  Method Guide
No                                   26.6%             ITLA                  87.1%
Not Sure                             14.5%

       Question 7 Field Assistance Office       Question 8 Field Assistance Office
     Do you feel your suggestions or feedback
                                                How long have you been a Contact
         are considered when updating the
                                                Representative or a Tax Specialist?
        ITLA tax law categories or probes?

Yes                                  25.8%      Less than one year           5.1%
No                                   19.0%          1 to 3 years             32.2%
Not Sure                             22.0%          4 to 5 years             11.6%
Never made any
suggestions or offered               33.2%       More than 5 years           51.0%
feedback.




                                                                                      Page 22
        The Interactive Tax Law Assistant Helps Assistors
         Provide Accurate Answers to Taxpayer Inquiries



                                                    Appendix V

Management’s Response to the Draft Report




                                                            Page 23
The Interactive Tax Law Assistant Helps Assistors
 Provide Accurate Answers to Taxpayer Inquiries




                                                    Page 24
